                               U.S. DEPARTMENT OF THE INTERIOR
                                   OFFICE OF INSPECTOR GENERAL




        PROGRAM ASSESSMENT RATING TOOL
    REVIEW OF U.S. FISH AND WILDLIFE SERVICE
   NATIONAL WILDLIFE REFUGE SYSTEM PROGRAM




                          The Nulhegan River (photo courtesy of Silvio O. Conte Refuge)




Y-RR-FWS-0003-2006	   	    	         	          	          	          	          	        	              MARCH 2007
                United States Department of the Interior
                                 Office of Inspector General
                            Office of Program Analysis and Technical Support
                                       381 Elden Street, Suite 1100
                                         Herndon, Virginia 20170




                                                                         March 19, 2007


Memorandum

To:            Director, Fish and Wildlife Service

From:          Donald W. Cairns
               Director, Program Analysis and Technical Support

Subject:       Program Assessment Rating Tool (PART) - Review of U.S. Fish and Wildlife
               Service National Wildlife Refuge System Program (Report No. Y-RR-FWS-
               0003-2006)

       This final report presents the results of our review of the Fish and Wildlife Service,
National Wildlife Refuge System Program. It includes eight suggestions for improving the
Program prior to the next scheduled Office of Management and Budget PART review.

        The legislation, as amended, creating the Office of Inspector General requires that we
report to the Congress semiannually on all reports issued. Accordingly, we will include
information from this report in our next semiannual report.

       We want to thank you and your staff for your valuable input during our review.
Although a response to this report is not required, we would appreciate your informing us of any
progress you make prior to the PART reassessment.

      If you have any comments or questions regarding this report, please call me at
703–487–8011.
                                         Why We Did This Review
WHAT IS THE PART?
                             The Deputy Secretary asked the Office of Inspector General (OIG) to
Federal agencies use the     review the programs assessed using the Office of Management and Budget
Program Assessment           (OMB) Program Assessment Rating Tool (PART) and suggest improve-
Rating Tool (PART), a        ments for programs that could not demonstrate results. From 2002 to 2006,
standard questionnaire,      the OMB assessed 73 DOI programs, reflecting over $9 billion dollars in
to submit information on     annual budget authority. During this review, we evaluated the Fish and
federal programs to the      Wildlife Service’s (FWS) National Wildlife Refuge System (NWRS) pro-
Office of Management         gram, which previously failed to demonstrate results, and is scheduled to
and Budget (OMB).            be reassessed by OMB in FY2007.

OMB uses the information
to evaluate program                                      Summary
effectiveness, to
recommend improvements
                             Overall, FWS has made significant progress in addressing the four OMB
for rated programs, and to
                             recommendations related to the NWRS program. Specifically, FWS
follow up on those
                             has developed a 5-year draft strategic plan (2006-2010); developed and
improvements.
                             implemented an automated system that allows aggregation of performance
                             data at national and regional levels; engaged an independent contractor to
PART results are published
                             evaluate program effectiveness in addressing strategic goals; and has made
on the ExpectMore.gov
                             considerable progress in linking individual employee performance plans
Web site.
                             to appropriate targets. However, we have identified areas still in need of
                             improvement.
See Appendix A for more
information on the history
                             Thus, this report provides suggestions for further improvement and is
and use of the PART.
                             structured to correspond to key recommendations from OMB’s 2003 pro-
                             gram assessment.If FWS satisfactorily addresses the areas of improvement
                             we have identified, we believe the NWRS Program will be better posi-
                             tioned to achieve a positive rating in its upcoming PART reassessment.


                                                     Background
                             FWS oversees over 545 national wildlife refuges and 37 wetland
                             management districts that cover more than 95 million acres. The primary
                             mission of the NWRS program is to conserve the Nation’s wildlife habitat.
                             FWS allows conservation-compatible use of refuges including hunting,
                             fishing, and education.

                             NWRS is valued at about $17 billion, and current annual program funding
                             is almost $400 million. The program is supported by more than 3,000
                             refuge employees and about 40,000 volunteers.

                             Because OMB was unable to determine NWRS performance in 2003, it
                             assigned the FWS NWRS an overall rating of “Results Not Demonstrat-

                                               1
                       ed.” Specifically, OMB felt that FWS had a vision for this program but
                       that the NWRS lacks clear priorities, measurable outcome-based perfor-
                       mance goals, and independent program performance evaluations.

                                               Objectives
                       Our review objectives were twofold. We sought to review FWS progress
                       in responding to OMB FY2003 PART recommendations as well as provide
                       suggestions that FWS can use to prepare for its upcoming PART review.


                                   Scope and Methodology
                       We limited our review to OMB’s four follow-up recommendations listed
                       in its Improvement Plan, taking into consideration OMB PART guidance
                       (See Appendix). To evaluate FWS progress, we interviewed key officials
                       involved in strategic planning and regional performance measurement;
                       reviewed and analyzed supporting documents; and visited the Patuxent
                       Research, Eastern Neck National Wildlife, and Silvio O. Conte National
                       Fish & Wildlife Refuges as well as the Northeast Regional Office. At the
                       refuge sites, we obtained and evaluated employee performance plans. We
                       also obtained several Senior Executive Service (SES) performance plans
                       for review from FWS headquarters.

                       We conducted the review in accordance with the January 2005 “Quality
                       Standards for Inspections” established by the President’s Council on
                       Integrity and Efficiency.


                                        Results of Review
                       We reviewed the NWRS program and found that FWS has made
                       significant progress on all four OMB improvement plan recommendations.
                       We address each recommendation below and provide suggeations that
                       FWS might take to improve its PART rating.


OMB Recommendation 1: Develop a 5-year strategic plan for the national
                      wildlife refuge system program.

                       OMB’s recommendation to develop a separate 5-year strategic plan for
                       the NWRS program was intended to correct identified strategic planning
                       deficiencies. OMB noted that in April 2003, FWS developed long-term
                       and annual performance goals for the program as part of a DOI directive to
                       construct an FWS operational plan to support the department-wide strate-
                       gic plan. However, these measures were largely output or activity ori-
                       ented. Contrastingly, the PART encourages the use of outcome or results
                       oriented measures.
                                         2
                              In response to this recommendation, FWS developed a draft NWRS
                              strategic plan dated March 2006. The draft includes 12 long-term strategic
                              goals, with narratives that broadly explain expected outcomes in terms of a
                              general performance statement. We found, however, that the draft strategic
                              plan lacks quantitative outcome measures with baselines for each goal.

                              At the time of our review, FWS was considering five proposed outcome
                              measures (with related targets and baseline data) for inclusion in the final
                              version of the strategic plan. We believe that FWS has not clearly demon-
                              strated how the five new measures will connect to the 12 strategic goals.

Each Long Term                The NWRS draft strategic plan (FY2006–2010) has long-term strategic
Strategic Goal Does           goals, but fails to provide a limited number of specific long-term
Not Have Specific             performance measures that focus on outcomes. The plan contains an
Outcome Measures              appendix that provides over 100 annual performance measures and targets
or Targets                    for the 12 strategic goals. It is unclear how these measures can be used to
                              assess the long-term progress in a particular area. For example, in the area
   PART Question 2.1          of refuge habitat there are 2 strategic goals supported by 40
 Does the program have a      performance measures and targets. The draft strategic plan however, has
 limited number of specific   failed to develop an overall outcome measure in this area.
 long-term performance
 measures that focus on       The following diagram illustrates how one of the FWS proposed outcome
 outcomes and meaningfully    measures can be used to address multiple goals. The proposed outcome
 reflect the purpose of the   measure for refuge lands and waters with habitat in good condition is
 program?                     percent of acres. The baseline provided for this measure is 88.5 percent.
                              The annual targets (in terms of additional percent of acres in good
   PART Question 2.2          condition) had not been determined at the time of our review.
 Does the program have
 ambitious targets and
 time frames for its
 long-term measures?




                                             Figure 1. Possible use of outcome measures.

                                                3
Long-term Strategic             FWS should structure goals to directly match specific annual performance
Goals Do Not Have a             measures. These measures should be outcome-oriented.
Limited Number of
Specific Annual                 We suggest that the FWS director have the NWRS program chief:
Performance Measures
                                       •	     Ensure that each long-term strategic goal has specific out	
                                       	      come measures and related targets.
                                       •	     Match long-term strategic goals with a limited number of 	
                                       	      specific annual performance measures.


OMB Recommendation 2: Develop baseline data and targets for performance
                      measures.

                                Prior to the OMB review in FY2003, regional managers did not formally
     PART Question 2.4          set goal-based targets to measure their actual progress against baseline
  Does the program have         data. However, since the 2003 review FWS has significantly changed its
  baselines and ambitious       strategic and annual planning processes. In response to OMB’s second
  targets and time frames for   recommendation, FWS designed and implemented a database to capture
  its annual measures?          information on 545 refuge units and 37 wetland units. The Refuge Annual
                                Performance Plan (RAPP) system is a fully automated, in-house system
                                that links to other programs such as the Department maintenance database.
                                The RAPP system addresses Departmental, FWS operational plan, and
                                PART goals. The first year data collected using RAPP established the
                                baseline.

Automated Refuge                The RAPP system allows field offices to compile performance data and
Annual Performance              submit it to the regional office supervisor via an electronic workbook.
Planning and Reporting          Once approved, the performance data is sent electronically to the regional
Reinforces                      chief. Managers at each level have the option of accepting or rejecting the
Accountability                  information submitted by lower levels. Regional information feeds into
                                the national numbers at headquarters. This review and approval process
                                spreads accountability throughout all levels in the organization. FWS
                                completed its RAPP annual cycle at the end of FY2006 using FY2005
                                actual data as its baseline.

                                Both headquarters and field officials acknowledge problems related to
                                timeliness when using the RAPP system. First, the RAPP process takes
                                longer than it should due to insufficiencies in computer access and
                                support. In order to close accounting books by the beginning of each
                                August, refuge officials use RAPP estimates instead of actual figures for
                                the last month of each fiscal year.

One Target-Related Best During our visit to a refuge region, we identified a best practice that could
Practice Identified     benefit all regions. Northeast Regional Office managers consider the staff
                        hours expended in the current year when they formulate the next year’s
                        performance targets. The region uses information obtained from the
                        Activity Based Costing (ABC) system to determine how many hours were

                                                  4
                      spent on individual performance measures. This best practice enables
                      managers to use this information, along with actual performance data for
                      the year, and gauge what can be accomplished the following year and set
                      new targets for annual measures accordingly.

                      Tracking approximately 100 annual measures and developing related
                      targets, while maintaining high quality supporting data is a challenge for
                      refuge field offices. Unfortunately, because the RAPP and ABC Systems
                      were developed separately, ABC codes do not align with RAPP system
                      performance measures. Although regional office managers cross
                      reference ABC codes to RAPP measures and provide field managers with
                      that information, field office supervisors still have to estimate how many
                      hours are actually worked under each measure. At this point, there is no
                      way to tell if refuge field offices are recording hours consistently.

                      We suggest that the FWS director have the NWRS program chief:
                                 •   Consider using actual data for the last month of the
                                     previous fiscal year rather than estimates for the last month 	
                                     of the current year when reporting actual performance over 	
                                     a 12-month period.
                                 •   Compare refuge regional approaches for developing targets 	
                                     to identify and implement best practices and
                                 •   Establish activity codes that can clearly show the
                                     relationship between RAPP and ABC.

OMB Recommendation 3: Develop a process for and schedule of independent
                      program evaluations.

                      FWS has selected a contractor to facilitate an independent evaluation of
                      the NWRS Program. The contract award was approximately $400,000.
                      The statement of work calls for an independent evaluation that will be
                      completed by April 2007 and provide recommendations on how to
                      improve operations to better achieve mission effectiveness. However, at
                      this point, FWS has only one independent evaluation scheduled and no
                      plans for regularly scheduled evaluations, as envisioned by OMB.

One Independent       In September 2006, the contractor held a 2-day workshop to develop the
Program Evaluation    evaluation design and process. The OMB examiner and members of the
is Scheduled          FWS leadership team, including representatives from headquarters and
                      regional offices, participated. The contractor has three people on the core
                      evaluation team, including two evaluation specialists and an ecologist.

                      The contractor’s “Evaluation and Methodology Work Plan Discussion
                      Draft,” dated October 13, 2006, calls for taking a comprehensive look at
                      NWRS program effectiveness in addressing the 12 long-term goals in the
                      strategic plan. In the draft, the contractor provides an analytical frame-
                      work for the evaluation demonstrated in a tiered approach. The top tier
                      provides two high-level NWRS program objectives linked to the middle
                      tier of seven intermediate objectives and outcomes. The bottom tier
                                          5
    PART Question 2.6              addresses cross-cutting support activities. We believe that this hierarchical
 Are independent and quality       framework of objectives could be used by FWS to develop fewer,
 evaluations of sufficient         consolidated, long-term strategic goals, with intermediate, measurable
 scope and quality conducted       outcomes or objectives.
 on a regular basis or as          We suggest that the FWS director have the NWRS program chief:
 needed to support program
                                          •   Schedule a series of focused independent program evaluations 	
 improvements and evaluate
                                              over an extended time frame. Use the independent evaluation’s 	
 effectiveness and relevance to
                                              framework of objectives to structure the final strategic plan.
 the problem, interest,
 or need?

OMB Recommendation 4: Link individual employee performance plans with goal-
                      related performance targets for each fiscal year.

   PART Question 2.8               FWS made progress in linking individual employee plans to strategic and
Has the program taken              operational plan goals, however, some employee plans still lack goal-
meaningful steps to correct its    related performance measures that are tied to annual targets.
strategic planning deficiencies?
                                   Our sample included a total of 50 individual employee performance plans
                                   that encompassed both supervisory and nonsupervisory operational
                                   positions. At the refuge offices visited, we reviewed employee
                                   performance plans for field and regional officials; at headquarters, we
                                   reviewed SES performance plans.

Some Employee Plans                  Initially, FWS senior officials told us that all SES performance plans were
Lack Goal-Related                  linked to an automated database and that almost all FY2006 employee plans
Performance Measures               were linked to appropriate goal-based measures. Later, officials explained
Tied to Annual Targets             that FWS required only SES performance plans to be tied to a numeric
                                   target. The five SES plans we reviewed were linked to one or more
                                   critical measures with numeric targets and to the operational plan or
                                   strategic goals.

                                                               Within our sample, we found that all plans
                                                               included at least one critical element tied
                                                               to strategic or operational plan goals. The
                                                               DOI Management Initiative Tracking System
                                                               shows that 82 percent of FWS employee plans
                                                               in FY2005 include performance measures. In
                                                               over one-third of the employee plans, however,
                                                               FWS did not link performance measures or
                                                               targets directly to the goals cited in the critical
                                                               elements.

                                                               According to an FWS senior official, the next
                                                               step is to address the GS-14 and GS-15 level
                                                               manager and supervisor plans.

Black Branch tributary of the Nulhegan River                   OMB “Guidance to Improve the Consistency 	
(photo courtesy of Silvio O. Conte Refuge) 			                 of 2006 PART Assessment,” section 3.2, states
                                                     6
                                 that program managers and partners are accountable for achieving program
  PART Questions 3.2             results. It requires that all programs establish clearly defined or quantifiable
Are Federal managers and         performance standards for and accountability of managers.
program partners (grantees,
subgrantees, contractors,        We suggest that the FWS director have the NWRS program chief:
cost-sharing, etc.) held
accountable for cost, schedule
                                       •   Link all program manager and supervisory employee
and performance results?
                                           performance plans to goal-related performance targets for the 	
                                           next fiscal year.




                                                   7
                               Appendix: History And Use of the Part


Performance              In 1993, the Congress found federal managers to be “disadvantaged in
Monitoring is Required   their efforts to improve program efficiency and effectiveness, because of
by Law                   insufficient articulation of program goals and inadequate information on
                         program performance.” The Government Performance and Results Act
                         (Public Law 103-62), or GPRA, was passed to promote a focus on results
                         by requiring federal agencies to engage in strategic planning and
                         performance reporting.

                         The “President’s Management Agenda,” which includes a Government-
                         wide initiative to improve budget and performance integration, was
                         published in 2001. The Agenda calls for agencies to monitor program
                         performance and to incorporate performance review into budgetary
                         decision-making.

Objectives and Results   To support this initiative, OMB instituted use of a standard questionnaire
of Federal Programs      called the Program Assessment Rating Tool (PART). Using the PART
are Assessed During      requires federal managers to review program design, strategic planning,
Budget Formulation       management, and results. Based on the questionnaires, OMB rates
                         “Performing” programs as “Effective,” “Moderately Effective,” “Adequate,”
                         or “Ineffective.” “Not Performing” programs have ratings of “Ineffective”
                         and “Results Not Demonstrated.”

OMB Has Found That       As of 2006, of the federal programs assessed, only 17 percent have been
Many DOI Programs        rated Effective, while 21 percent were placed in the category Results Not
Lack Performance         Demonstrated. Within the DOI, OMB assessed 73 programs, reflecting
Information              over $9 billion dollars in annual budget authority. Of these, only eight
                         were rated Effective and OMB examiners were unable to determine
                         whether 22 of these programs, reflecting nearly half of the assessed
                         spending, were performing satisfactorily due to the lack of reliable
                         performance information.

                                       Summary of PART Rating Results
                          PART Ratings                      Federal Programs      DOI Programs
                          Effective                         166 (17%)             8 (11%)
                          Moderately Effective              299 (31%)             21 (29%)
                          Adequate                          276 (28%)             22 (30%)
                          Ineffective                       27 (3%)               0 (0%)
                          Results Not Demonstrated          209 (21%)             22 (30%)
                          Total Number of Programs          977                   73
                          Rated

                         OMB publishes PART results on its ExpectMore.gov Web site, together
                         with recommended improvement actions, for every program it has
                         assessed. Agency officials and program managers follow up on these

                                           8
recommendations and keep OMB, and ultimately the public, apprised of
progress in establishing or improving mechanisms for performance
measurement. They communicate updates both internally and at
http://www.whitehouse.gov/omb/expectmore/. OMB then reassesses
programs on schedules developed in consultation with the responsible
agencies.




                9
  Report Fraud, Waste, Abuse,
     and Mismanagement
          Fraud, waste, and abuse in government
          concerns everyone: Office of Inspector
          General staff, Departmental employees,
            and the general public. We actively
          solicit allegations of any inefficient and
            wasteful practices, fraud, and abuse
          related to Departmental or Insular Area
         programs and operations. You can report
              allegations to us in several ways.




By Mail:          U.S. Department of the Interior
                  Office of Inspector General
                  Mail Stop 5341 MIB
                  1849 C Street, NW
                  Washington, D.C. 20240

By Phone          24-Hour Toll Free               800-424-5081
                  Washington Metro Area           703-487-5435

By Fax            703-487-5402

By Internet       www.doioig.gov/hotline
